September 10, 2020
Jordan “Danny” Bickell
Deputy Clerk for Practice and Procedure
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
(dbickell@supremecourt.gov)
Re:

No. 20-177, Ally Financial, Inc. v. Alberta Haskins, et al.

Dear Mr. Bickell:
I am a member of the Bar of this Court and one of the lawyers for the respondents in the
above-captioned matter, which was docketed on August 18, 2020.
Because this case does not warrant review under the standards set forth in this Court’s
Rule 10, the respondents do not intend to file a response to the petition for a writ of certiorari
unless one is requested by the Court.
Sincerely,

Deepak Gupta
cc:

Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

